/"A

!

r-\ n Z'

■!;'■

n - H !r;

!
\

i

\. -i

■

i-

-

- n

No:
In the
Supreme Court of the United States
JOHNNY MELENDEZ,

Supreme Court, U.S
FILED

sep

1 o i::3
■Al„J

Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
PETITION FOR WRIT OF CERTIORARI

Johnny Melendez
Register Number 14119-014
Federal Correctional Institution
P.O. Box 2000
Joint Base Mdl, NJ 08640

RECEIVED
SEP 17 2m
OFFICE OF THE CLERK
SUPREME COURT, U.S.

QUESTIONS PRESENTED FOR REVIEW
Should a writ of certiorari should be granted to determine if counsel
rendered ineffective assistance when it allowed the court to rely on a prior
conviction for sentencing purposes, absent court documents to support that
Melendez was counseled at the time, thus violating Melendez’s rights to
representation in violation of Scott v. Illinois, 440 U.S. 367 (1995).
Does possession of narcotics in the State of Connecticut, 21(a)-277(a)
qualify under the Career Criminal Act for a sentence enhancement.

ii

PARTIES TO THE PROCEEDINGS
IN THE COURT BELOW
In addition to the parties named in the caption of the case, the following
individuals were parties to the case in the Unite States Court of Appeals for the
First Circuit and the United States District, Dsitrict of Puerto Rico.
None of the parties is a company, corporation, or subsidiary of any company or
corporation.

in

TABLE OF CONTENTS
Questions Presented for Review

11

List of Parties to the Proceedings in the Courts Below

in

Table of Contents

IV

Table of Authorities

v

Opinions Below

2

Statement of Jurisdiction

2

Constitutional Provisions, Treaties, Statutes, Rules, and
Regulations Involved.......................................................

2

Statement of the Case

4

Reasons for Granting the Writ

5

Should a writ of certiorari should be granted to determine if counsel
rendered ineffective assistance when it allowed the court to rely on a prior
conviction for sentencing purposes, absent court documents to support that
Melendez was counseled at the time, thus violating Melendez’s rights to
representation in violation of Scott v. Illinois, 440 U.S. 367 (1995)............

6

Does possession of narcotics in the State of Connecticut, 21(a)-277(a)
qualify under the Career Criminal Act for a sentence enhancement

9

Conclusion

13

Melendez v. United States, Docket No. 19-2237

A-l

Melendez v. United States, No. 16-1768 (DRD), 2019 U.S. Dist. LEXIS
172159 (D.P.R. Sep. 30,2019)..................................................................

A-2

IV

TABLE OF AUTHORITIES
Alabama v. Shelton, 535 U.S. 654 (2002)

8

Baldasar v. Illinois, 446 U.S. 222 (1990)

8

Burgett v. Texas, 389 U.S. 109 (1967)

7

Descamps v. United States, 133 S. Ct. 2276 (2013)
Johnson v. United States, 135 S.Ct. 2551 (2015)

11
5

Johnson v. United States, 559 U.S. 132 (2010)

11, 12

Nichols v. United States, 511 U.S. 738 (1994)

7

Richardson v. United States, 526 U.S. 813 (1999)
Scott v. Illinois, 440 U.S. 367 (1995)

12
6,7

Shepard v. United States, 544 U.S. 13 (2005)

11

Taylor v. United States, 495 U.S. 575 (1990)

10

United States v. Tucker, 404 U.S. 443 (1972)

7

Regulations
21 U.S.C. § 841(a)(1)

4

28 U.S.C. § 1254(1)

2,3

28 U.S.C. § 1654(a)

2

28 U.S.C. § 2255

2,3,8

v

Rules
Supreme Court Rule 10

5,6

Supreme Court Rule 10.1(a)

6

VI

No:

In the
Supreme Court of the United States

JOHNNY MELENDEZ,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Johnny Melendez, the Petitioner herein, respectfully prays that a writ of
certiorari is issued to review the judgment of the United States Court of Appeals
for the First Circuit, entered in the above-entitled cause.

OPINION BELOW
The opinion of the Court of Appeals for the First Circuit, whose judgment is
herein sought to be reviewed, is an unpublished decision entered on June 16, 2020,
in Melendez v. United States, Docket No, 19-2237 and is reprinted in the separate
Appendix A to this petition.
The denial of Petitioner’s Title 28 U.S.C. § 2255 in the District of Puerto Rico,
Melendez v. United States, No. 16-1768 (DRD), 2019 U.S. Dist. LEXIS 172159
(D.P.R. Sep. 30, 2019) was denied on September 30, 2019, and is reprinted as
Appendix B to this petition.
STATEMENT OF JURISDICTION
The Judgment of the Court of Appeals was entered on June 16,2020.
The Jurisdiction of this Court is invoked under Title 28 U.S.C. Section 1654(a)
and 28 U.S.C. Section 1254(1).
CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES AND RULES INVOLVED
The Fifth Amendment to the Constitution of the United States provides in
relevant part:
No person shall be held to answer for a capital, or otherwise, infamous
crime, unless on a presentment or indictment of a Grand Jury... nor shall
any person be subject for the same offense to be twice put in jeopardy of
life or limb, nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property, without due
process of law.

2

Id. Fifth Amendment U.S. Constitution
The Sixth Amendment to the Constitution of the United States provides:
In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the State and District wherein the
crime shall have been committed, which District shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation, to be confronted with the witness against him; to have
compulsory process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense.
Id. Sixth Amendment U.S. Constitution
Title 28 U.S.C. § 2255 provides in pertinent part:
A prisoner in custody under sentence of a court established by Act of
Congress claiming the right to be released upon the ground that the
sentence was imposed in violation of the Constitution or laws of the
United States, or that the court was without jurisdiction to impose such
sentence, or that the sentence was in excess of the maximum authorized by
law, or is otherwise subject to collateral attack, may move the court which
imposed the sentence to vacate, set aside or correct the sentence.
$ $ $ $ $

Unless the motion and the files and records of the case conclusively show
that the prisoner is entitled to no relief, the court shall cause notice thereof
to be served upon the United States attorney, grant a prompt hearing
thereon, determine the issues and make findings of fact and conclusions of
law with respect thereto.
Id. Title 28 U.S.C. § 2255

3

STATEMENT OF THE CASE
On May 2, 2013, a Grand Jury returned a One-Count Indictment against
“Melendez” for an attempt to possess with intent to distribute one hundred (100)
grams or more of a mixture or substance containing a detectable amount of heroin,
a Schedule I Narcotic Drug Controlled Substance, in violation of 21 U.S.C. §§
841(a)(1), (b)(l)(B)(l) and 846. See Crim. No. 13-239 (DRD). Melendez
ultimately agreed to enter a straight plea, i.e., without prior agreement with the
Government. See Crim. No. 13-239 (DRD), Docket Nos. 33 and 36. Accordingly,
on March 11, 2014, Melendez was sentenced to one-hundred and eighty-eight
(188) months. On March 18, 2014, Melendez timely filed a Notice of Appeal.
Yet, by July 21, 2015, the First Circuit affirmed the District Court’s Judgment,
thus, issuing its judgment affirming the conviction and sentence. See Crim. No. 13239 (DRD). Subsequently, on April 19, 2016, Melendez timely filed a Motion to
Vacate, Set Aside, or Correct Sentence (Title 28 § 2255). Two months thereafter,
he filed a Supplemental Brief addressing several allegations of ineffective
assistance of counsel. The original brief alleged as follows:
a. Trial counsel conceding during the Sentencing Hearing that the Petitioner
was a career offender and failed to object to and/or appeal the enhancement on
grounds that Petitioner’s prior conviction for “aggravated assault on police
officer” was not “crime of violence.” Moreover, Melendez argues that the
Government failed to prove by a preponderance of the evidence the offense
was a crime of violence, thus the Court should vacate the sentence imposed on
March 11, 2015.

4

The Supplemental Brief alleged as follows:
a. Allowing the Court to rely on a prior offense for possession of narcotics
without submitting documents to support the Petitioner’s right to adequate
representation; and
b. Failure to challenge that the possession of narcotics 21(a)-277(a) did not
qualify under the career criminal provision.
Finally, Melendez requested relief under Johnson v. United States, 135 S.Ct.
2551 (2015) allegation as to his career offender clause and to the residual clause of
the guideline that was invalidated by the Supreme Court.
The district court denied the requested relief and the First Circuit denied the
request for a certificate of appealability. This timely petition for writ of certiorari
followed.
REASONS FOR GRANTING THE WRIT
THIS COURT SHOULD ISSUE A WRIT OF CERTIORARI BECAUSE
THE UNITED STATES COURT OF APPEALS FOR THE FIFTH
CIRCUIT AND THE DISTRICT COURT HAVE DECIDED A FEDERAL
QUESTION IN A WAY THAT CONFLICTS WITH APPLICABLE
DECISIONS OF THIS COURT
Supreme Court Rule 10 provides in relevant part as follows:
Rule 10
CONSIDERATIONS GOVERNING REVIEW
ON WRIT OF CERTIORARI
(1) A review on writ of certiorari is not a matter of right, but of judicial
discretion. A petition for a writ of certiorari will be granted only when
there are special and important reasons therefore. The following, while
neither controlling nor fiilly measuring the Court’s discretion, indicate
the character of reasons that will be considered:
5

(a)When a United States court of appeals has rendered a decision
in conflict with the decision of another United States Court of
Appeals on the same matter; or has decided a federal question in
a way in conflict with a state court of last resort; or has so far
departed from the accepted and usual course of judicial
proceedings, or sanctioned such a departure by a lower court, as
to call for an exercise of this Court’s power of supervision.
(b)When a ... United States court of appeals has decided an
important question of federal law which has not been, but should
be, settled by this Court, or has decided a federal question in a
way that conflicts with applicable decision of this Court.... Id.
Id. Supreme Court Rule 10.1(a), (c).
QUESTIONS PRESENTED
1. SHOULD A WRIT OF CERTIORARI SHOULD BE GRANTED
TO DETERMINE IF COUNSEL RENDERED INEFFECTIVE
ASSISTANCE WHEN IT ALLOWED THE COURT TO RELY ON A
PRIOR CONVICTION ABSENT COURT DOCUMENTS TO SUPPORT
THAT MELENDEZ WAS COUNSELED AT THE TIME, THUS
VIOLATING MELENDEZ’S RIGHTS TO REPRESENTATION IN
VIOLATION OF SCOTT v. ILLINOIS, 440 U.S. 367 (1995).
During the sentencing hearing, the Probation Officer made a determination that
Melendez’ sentence should be enhanced as a career offender due a prior conviction
for Possession of Narcotic’s (21a-279(a)) from the State of Connecticut. (PSI
33) The PSI Report does not provide any facts of this arrest nor whether
Melendez was represented at the time. Quite possibly the prior conviction might
not be attributable to Melendez since it appears that prior the February 29, 2002,
case being docketed, Melendez was already in custody under United States v.

6

Melendez, 01-00029, (D.C. Connecticut) and sentenced on January 31, 2002. (PSI
134) Quite possibly, the matter in the State of Connecticut was never addressed
with counsel since Melendez was in federal custody. This Court in Scott v.
Illinois, 440 U.S. 367 (1995) clarified that the Sixth and Fourteenth Amendments
of the United States Constitution require that no indigent criminal defendant be
sentenced to a term of imprisonment unless the State has afforded him the right to
assistance of appointed counsel in his defense. In the aforementioned conviction, ^
33, the record is devoid of any representation whatsoever in any of Melendez’s
prior convictions. Counsel had in his possession the Presentence Investigation
Report for several months before the sentencing hearing and failed to clarify or
review the status of representation of the aforementioned conviction. The Courts
have made it clear that a conviction obtained in violation of a right to counsel
cannot be used to enhance Melendez’s sentence. See United States v. Tucker, 404
U.S. 443 (1972); Burgett v. Texas, 389 U.S. 109 (1967). These are not cases that
developed recently before Melendez’s sentencing. These cases were decided years
before Melendez’s sentencing and should have been the staple of counsel’s
objection to the Presentence Investigation Report. Although, the Supreme Court in
Nichols v. United States, 511 U.S. 738 (1994) held that a previous uncounseled
conviction that did not expose the defendant to a jail sentence could be used to
enhance a prior sentence, (overruling Baldasar v. Illinois, 446 U.S. 222 (1990)), in

7

the instant case, the conviction relied upon by the Probation Officer, ^ 33 resulted
in terms of incarceration which were used to enhance his current Federal sentence.
In Alabama v. Shelton, 535 U.S. 654 (2002) the Court held for the first time
that the defendant is entitled to a Sixth Amendment to counsel even if he receives
probation if he could subsequently be sent to prison. In the instant case, Melendez
was sentenced to 5 years concurrent to an undisclosed term of incarceration. It can
be assumed that the sentence was related to the federal charges in (PSI T| 34),
however, it is unknown and cannot be determined based on the records before the
district court. The court could not reach a determination that based on the missing
information in the PSI that counsel acted with proper diligence and in Melendez’
best interest when he failed to challenge the validity of the prior conviction in light
of the Probation Officer’s determination that Melendez was eligible for a career
criminal enhancement. Although Melendez is aware that he cannot challenge the
validity of the prior conviction, he may in this Title 28 U.S.C. § 2255 proceeding,
challenge counsel’s ineffectiveness for his failure to clarify to the Court that the
prior convictions were, in fact, uncounseled. Sqq Alabama v. Shelton, 535 U.S. 654
(2002). As such, this Court must agree that counsel rendered ineffective
assistance and a writ of certiorari should be granted.

8

2. DOES POSSESSION OF NARCOTICS IN THE STATE OF
CONNECTICUT, 21(A)-277(A) QUALIFY UNDER THE CAREER
CRIMINAL ACT FOR A SENTENCE ENHANCEMENT.
The State of Connecticut provides two sections for a punishment under 21(a)277, i.e. section (a), (b), (c) or (d):
Sec. 2la-277. (Formerly Sec. 19-480). Penalty for illegal manufacture,
distribution, sale, prescription, dispensing, (a) Any person who
manufactures, distributes, sells, prescribes, dispenses, compounds, transports
with the intent to sell or dispense, possesses with the intent to sell or
dispense, offers, gives or administers to another person any controlled
substance which is a hallucinogenic substance other than marijuana, or a
narcotic substance, except as authorized in this chapter, for a first offense,
shall be imprisoned not more than fifteen years and may be fined not more
than fifty thousand dollars or be both fined and imprisoned; and for a second
offense shall be imprisoned not more than thirty years and may be fined not
more than one hundred thousand dollars, or be both fined and imprisoned;
and for each subsequent offense, shall be imprisoned not more than thirty
years and may be fined not more than two hundred fifty thousand dollars, or
be both fined and imprisoned.
(b) Any person who manufactures, distributes, sells, prescribes, dispenses,
compounds, transports with intent to sell or dispense, possesses with intent
to sell or dispense, offers, gives or administers to another person any
controlled substance, except a narcotic substance, or a hallucinogenic
substance other than marijuana, except as authorized in this chapter, may,
for the first offense, be fined not more than twenty-five thousand dollars or
be imprisoned not more than seven years or be both fined and imprisoned:
and, for each subsequent offense, may be fined not more than one hundred
thousand dollars or be imprisoned not more than fifteen years, or be both
fined and imprisoned.
(c) No person shall knowingly possess drug paraphernalia in a drug factory
situation as defined by subdivision (20) of section 2la-240 for the unlawful
mixing, compounding or otherwise preparing any controlled substance for
purposes of violation of this chapter.

9

(d) As an alternative to the sentences specified in subsections (a) and (b) of
this section, the court may sentence the person to the custody of the
Commissioner of Correction for an indeterminate term not to exceed three
years or the maximum term specified for the offense, whichever is the lesser,
and, at any time within such indeterminate term and without regard to any
other provision of law regarding minimum term of confinement, the
Commissioner of Correction may release the convicted person so sentenced
subject to such conditions as he may impose including, but not limited to,
supervision by suitable authority. At any time during such indeterminate
term, the Commissioner of Correction may revoke any such conditional
release in his discretion for violation of the conditions imposed and return
the convicted person to a correctional institution.
Id. Sec. 2la-277
All of the subsections of 2 la-277 provide different sentencing schemes.
Section 21a-277(a) provides a sentence of “imprisoned not more than fifteen years
and may be fined not more than fifty thousand dollars or be both.” Section 21a277(b) provides that no defendant shall be “fined not more than twenty-five
thousand dollars or be imprisoned not more than seven years or be both fined and
imprisonment.” Section 21a-277(d) provides that the court “may sentence the
person to the custody of the Commissioner of Correction for an indeterminate term
not to exceed three years or the maximum term specified for the offense,
whichever is the lesser.” Based on the PSI Report’s documentation, it is unknown
what subsection Melendez was convicted of violating.
Counsel should have advised the Court that that predicate offense fails to meet
the minimum requirements for a career criminal enhancement. The Supreme
Court’s triage of cases, Taylor v. United States, 495 U.S. 575 (1990), Shepard v.
10

United States, 544 U.S. 13 (2005) and Descamps v. United States, 133 S. Ct. 2276
(2013) allow the Court to review a limited number of documents to determine
“which statutory phrase [as] [elements] [were] the basis for the conviction.”
Descamps at 2285, quoting Johnson v. United States, 559 U.S. 132 (2010).
Without a review of the limited documents permitted under Taylor, Sheppard and
Descamps, none of which are available for the Court to review at the time of
sentencing, can the Court determine what element of the charged offense Melendez
violated and which category of the statute Melendez violated to determine
compliance with the career criminal enhancement. The separate purpose of the
review is to determine which alternative elements of the State’s offense are
applicable based on Melendez’s plea. With a guilty plea or pleas, the “restricted
set of materials” allowed to be reviewed include “the terms of the plea agreement
or transcript of a colloquy between [State court] judge and defendant...” Id, citing
Sheppard at 25-26. The purpose of the review is to determine which alternative
element(s) of the State offense to which the defendant pled guilty. For example, in
Sheppard, the question was whether Sheppard pled guilty by entering a building Massachusetts burglary alternative element - or a boat or car - Massachusetts
burglary alternative elements two and three. If the former then Sheppard’s State
Court conviction was an adequate predicate. If neither the latter, it was not. In
these circumstances, the Court cannot determine by looking only at the elements of

11

the State crime, or in this case the Probation Officer’s notes as to what occurred,
whether Melendez was convicted of a CCE enumerated offense predicate. Under
the Taylor, Sheppard, and Descamps cycle, the first inquiry, therefore, is what are
the elements of the charged offense for the Possession of Narcotics? Identifying
the elements of the crime should be a simple exercise. However, in the instant
case, no elements of the offense nor details of the offense are unavailable.
Therefore, it is unknown whether Melendez committed the elements of a felony
offense or of a misdemeanor offense or something else which will not classify
under the career criminal enhancement. Discovering the elements of a State crime
should not be challenging. Nor should this exercise involve searching the entire
State criminal code for the elements of a particular crime. Federal Courts are to
look at the elements of the State crime, not go exploring the entire State criminal
code looking for elements of crimes that do not exist. Crimes “are made up of
factual elements ... Calling a fact an element has certain legal consequences ...
A jury ... cannot convict unless it is unanimously found that the Government has
proved each element...” Id. Richardson v. United States, 526 U.S. 813, 817
(1999). In this case, ^ 34, of the PSI alleged that Melendez was sentenced to 5
years’ incarceration for violating 21a-279(a), with nothing else. It is unknown what
quantity or type of narcotic Melendez possessed if any. There are no facts, apart
from the Probation Officer’s statements that Melendez actually violated 2la-

12

279(a), (b) or (d) for that matter. What Melendez was initially charged with as
allegedly doing does not matter. What matters is which alternate version of the
offense charged Melendez pled guilty to. This question is left unanswered unless
separate documents are available. None of these documents were reviewed by the
District Court before sentencing and none were reviewed by counsel prior to
contest the validity of the priors. As such, this Court must agree that an
evidentiary hearing is required to address the violations of ineffectiveness as raised
herein on counsel’s failure to object to the Career Criminal enhancement.
As such, a writ of certiorari should be granted to since Connecticut Statute
21(A)-277(A) does meet the career criminal enhancement guideline calculations.

13

CONCLUSION
Based on the foregoing, this Court should grant this request for a Writ of
Certiorari and order the Court of Appeals for the First Circuit.
Done this

ID , day of September 2020.
JohnnyMelendez
Register Number 14119-014
Federal Correctional Institution
P.O. Box 2000
Joint Base Mdl, NJ 08640

14

